   March 20, 2003




Logistics


Accountability and Control of
Materiel at the Warner Robins
Air Logistics Center
(D-2003-064)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFMC                  Air Force Materiel Command
SSC                   Shop Service Center
TI                    Technology and Industrial Support
WR-ALC                Warner Robins Air Logistics Center
WSSC                  Weapon System Support Center
            Office of the Inspector General of the Department of Defense
Report No. D-2003-064                                                                    March 20, 2003
   (Project No. D2002LH-0094)

                    Accountability and Control of Materiel at the
                        Warner Robins Air Logistics Center

                                       Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management of items used for repair and overhaul processes should read this
report. The report discusses compliance with policies and procedures used to account for
and control materiel at Warner Robins Air Logistics Center.

Background. This is the sixth in a series of reports the Inspector General of the
Department of Defense is issuing that discuss accountability and control of materiel at
DoD maintenance depots. The Joint Group on Depot Maintenance estimated the DoD
maintenance expenditures to be about $15.3 billion for FY 2002. The Air Force portion
of that amount was about $6.4 billion.

Depot maintenance facilities need effective inventory control systems to ensure that an
adequate supply of materiel is on hand to maintain efficient levels of operation and to
meet the demands of customers. An effective system is also important to disclose
defective and obsolete goods; prevent loss through damage, pilferage, or waste; and
ensure the accuracy of inventory records. Through inventory control, materiel not
needed for current requirements at a depot can be identified and made available for
redistribution to meet other known requirements.

For this report, we reviewed inventory records from six maintenance divisions at Warner
Robins Air Logistics Center. The divisions had 36,304 records representing inventory on
hand valued at about $93.1 million. We used a stratified random sample to select
424 records for review at those 6 maintenance divisions. Additionally, we used a
judgmental sample to select for review floating spares∗ inventory and materiel located in
maintenance storerooms and on shop floors.

Results. Warner Robins Air Logistics Center did not effectively manage or control
materiel stored in local maintenance shops. The following conditions were found.

       •      Maintenance inventory records, when matched to a physical count, had a
              projected count error rate of 22.4 percent. The error rate overstatements are
              valued at an estimated $6.6 million and error rate understatements are valued
              at an estimated $4 million. Also, records for the Avionics Division’s floating
              spares inventory, when matched to a physical count, had an actual count error
              rate of 25.7 percent, resulting in overstatements of about $5.3 million and
              understatements of $1.2 million.


       ∗
           Floating spares are items authorized for retention in support of automatic test equipment.
       •   Materiel stored in maintenance storerooms and on shop floors exceeded
           requirements. The materiel was valued at about $14.1 million.

       •   Materiel on the shop floor and in the floating spares storage area of the
           Avionics Division was not recorded on accountable records. The materiel
           was valued at about $16.1 million.

As a result, Warner Robins Air Logistics Center had large and inaccurate inventories that
were difficult to manage and included materiel either in excess to known requirements or
unaccounted for, valued at about $30.2 million. Consequently, Warner Robins Air
Logistics Center could have about $30.2 million in potential monetary benefits. Further,
the excess, unrecorded materiel was not available to item managers to satisfy valid
requirements and, lacking visibility, allowed materiel to be subject to loss, obsolescence,
and theft. Implementing the recommendations in this report would allow Warner Robins
Air Logistics Center to improve the management of materiel and would correct material
management control weaknesses identified by this audit. (See the Finding section for the
detailed recommendations.)

Management Comments and Audit Response. The Air Force concurred with all
recommendations in this report and stated it has issued guidance regarding the
management of maintenance materiel that includes guidance for accountability and
control of materiel, providing management reports on inventory, conducting annual
inventories, and performing periodic reviews. Also, the Air Force accepted the potential
monetary benefit estimate of $30.2 million. Further, the Air Force stated that it would
review the need to include management of maintenance materiel as an assessable unit in
the management control program. See the Finding section for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments. We commend the Air Force for its comprehensive
actions and cooperation to improve the accountability and control of materiel at Warner
Robins Air Logistics Center.




                                             ii
Table of Contents

Executive Summary                                                    i

Background                                                          1

Objectives                                                          2

Finding
     Management of Materiel at Warner Robins Air Logistics Center    4

Appendixes
     A. Scope and Methodology                                       14
          Management Control Program Review                         17
          Prior Coverage                                            18
     B. Report Distribution                                         19

Management Comments
     Department of the Air Force                                    21
Background
    This is the sixth in a series of reports resulting from our audit of accountability
    and control of materiel at DoD maintenance depots. The Joint Group on Depot
    Maintenance estimated the DoD maintenance expenditures to be about
    $15.3 billion for FY 2002. The Air Force portion of that amount was about
    $6.4 billion for operation of three depot maintenance facilities (Air Logistics
    Centers). A significant portion of the Air Force depot maintenance budget is for
    purchasing materiel used in repair and overhaul processes at depot maintenance
    facilities.

    Warner Robins Air Logistics Center. Warner Robins Air Logistics Center
    (WR-ALC), located in Warner Robins, Georgia, is one of three Air Force Air
    Logistics Centers. The WR-ALC mission includes weapon system management,
    acquisition oversight, calibration services, and integrated logistics support of the
    various Air Force aircrafts and helicopters. Similar support is provided for
    electronic warfare equipment, avionics, general-purpose computers, missiles,
    aircraft propellers, and vehicles of various types. The WR-ALC Maintenance
    Directorate has overall responsibility of depot-level maintenance for the
    maintenance divisions, which include six aircraft divisions, an Avionics Division,
    and a Technology and Industrial Support (TI) Division. For this report, we
    assessed the C-5, C-130, C-141, and F-15 divisions (referred to collectively as the
    Aircrafts Division in this report); the Avionics Division; and the TI Division.

    Shop Service Centers (SSCs) and Weapon System Support Centers (WSSCs) are
    forward supply organizations located in the maintenance divisions’ shop work
    areas. The SSC/WSSC are the standard materiel and production support function
    for depot maintenance. The SSC/WSSC provide all supply-related services to the
    depot maintenance customer, which include stocking, storing, and issuing aircraft
    and repair parts. The SSC primarily supports exchangeable items and engine
    shops; the WSSC supports aircraft shops. As the single supply function, the
    SSC/WSSC are responsible to the maintenance customer for all aspects of supply
    support and are responsible and accountable for managing stocks. Further, the
    SSC/WSSC are responsible for scheduling and completing inventories of all
    assets at least on an annual basis.

    Materiel Classification. Materiel used at maintenance depots is generally
    classified as consumables or reparables. Consumables are supplies consumed
    during use, such as repair parts and fabrication materiel. Reparables are
    secondary items or subassemblies that can be restored to a serviceable condition
    through depot-level maintenance. Reparables are normally exchangeable on a
    one-for-one basis. For each reparable issued to maintenance for repair or
    overhaul, a serviceable reparable should be returned to the supply system.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel and goods in process by accounting and physical methods.
    Accounting control involves proper recording and reporting of inventories.
    Physical control involves a physical movement of inventories and consists of




                                         1
    proper safeguards for receiving, storing, handling, and issuing. The purpose of a
    physical inventory is to determine the condition and quantity of items by
    physically inspecting and counting the items.

    Inventory control is important because materiel not needed for current
    requirements at a depot can be identified and made available for redistribution to
    meet other known requirements. Each depot maintenance facility is required to
    record on-hand inventory balances on shop stock records. Shop stocks are
    demand-supported repair parts or consumable items that are stored within the
    depot maintenance facility to support workloads. For accounting purposes, shop
    stocks are considered consumed; however, depot maintenance facilities are
    required to maintain shop stock records to show on-hand inventory balances.
    Depot maintenance facilities need effective inventory control systems to ensure
    that an adequate supply of materiel is on hand to maintain efficient levels of
    operation and to meet the demands of customers. An effective system is also
    important to disclose defective and obsolete goods; prevent loss through damage,
    pilferage, or waste; and ensure the accuracy of inventory records.

    Management Oversight. The Air Force Materiel Command (AFMC) is the
    office of primary responsibility for the three Air Logistics Centers and provides
    overall guidance for managing materiel. Air Force Manual 23-110, “U.S. Air
    Force Supply Manual,” January 1, 2002, and AFMC Instruction 21-130,
    “Equipment Maintenance Materiel Control,” August 2000, provide policy and
    procedural guidance for management and control of materiel at the Air Logistics
    Centers.

    Storage of Materiel. The WR-ALC Maintenance Directorate is responsible for
    depot-level maintenance. WR-ALC storage areas (for regular inventory, courtesy
    storage and floating stock and spares, and “awaiting parts1” inventory) are located
    in the Aircrafts, Avionics, and TI Divisions. All the materiel is in support of the
    repair and manufacturing of weapon systems at WR-ALC.

    D035K Wholesale and Retail Receiving and Shipping System. The D035K
    Wholesale and Retail and Shipping System (D035K) is the primary data system
    that the Air Force uses to provide materiel support for depot-level operations. It
    is used to process receipts from vendors and other suppliers and materiel turned in
    from base organizations, such as the maintenance divisions. D035K also directs
    the movement of materiel into and out of storage and keeps track of where the
    materiel is located. Additionally, it computes requirements and processes retail
    customer requests and related transactions in support of maintenance. D035K is
    the official accountability record for materiel stored at maintenance facilities.


Objectives
    Our overall audit objective was to evaluate the effectiveness of policies and
    procedures used to account for and control materiel at WR-ALC. We also

    1
        Reparable items for which parts are not currently available.



                                                   2
reviewed the management control program as it related to the overall objective.
See Appendix A for a discussion of the scope and methodology, our review of the
management control program, and prior coverage.




                                   3
           Management of Materiel at Warner
           Robins Air Logistics Center
           WR-ALC did not effectively manage or control materiel stored in local
           maintenance shops. The following conditions were found.

                    •   Maintenance inventory records, when matched to a physical
                        count, had a projected count error rate of 22.4 percent. The
                        error rate overstatements are valued at an estimated
                        $6.6 million and error rate understatements are valued at an
                        estimated $4 million. Also, records for the Avionics Division’s
                        floating spares inventory, when matched to a physical count,
                        had an actual count error rate of 25.7 percent, resulting in
                        overstatements of about $5.3 million and understatements of
                        about $1.2 million.2

                    •   Materiel stored in maintenance storerooms and on shop floors
                        exceeded requirements. The materiel was valued at about
                        $14.1 million.3

                    •   Materiel on the shop floor and in the floating spares storage
                        area of the Avionics Division was not recorded on accountable
                        records. The materiel was valued at about $16.1 million.4

           Those conditions occurred because complete annual physical inventories
           and periodic reviews of materiel in inventory were not always performed.
           Further, AFMC policy did not require WR-ALC to submit reports on
           inventories of maintenance materiel for management review. As a result,
           WR-ALC had large and inaccurate inventories that were difficult to
           manage and included materiel either in excess to known requirements or
           unaccounted for, valued at about $30.2 million. Consequently, WR-ALC
           could have about $30.2 million in potential monetary benefits. Further,
           the excess, unrecorded materiel was not available to item managers to
           satisfy valid requirements and, lacking visibility, allowed materiel to be
           subject to loss, obsolescence, and theft.




2
    A judgmental sample was used to select floating spares inventory for review. The results
    presented are limited to the sample reviewed and cannot be generalized to the universe.
3
    A judgmental sample was used to select materiel stored in maintenance storerooms and on shop
    floor for review. The results presented are limited to the sample reviewed and cannot be
    generalized to the universe.
4
    A judgmental sample was used to select materiel located on floor of maintenance shops and in
    floating spares storage areas for review. The results presented are limited to the sample
    reviewed and cannot be generalized to the universe.



                                              4
Guidance
    DoD Guidance. DoD Regulation 4140.1-R, “DoD Materiel Management
    Regulation,” May 1998, provides policies for DoD Components regarding
    management of materiel. The regulation states that the DoD Component that has
    physical custody of materiel is responsible to care for and safeguard the materiel
    and shall maintain quantitative balance records by individual storage location.
    Also, the DoD Components shall conduct annual physical inventories and shall
    take appropriate actions to ensure that the on-hand quantity and total item
    property records agree.

    Air Force Guidance. Air Force Manual 23-110 states that inventories of all
    properties held by Air Force organizations will be conducted. The purpose of
    inventory is to validate the accounts and correct errors. The process of taking
    inventory involves the counting of physical property, comparing physical counts
    to record balances, and adjusting or correcting records so that record balances and
    quantity of property on-hand are identical. Materiel used by the Maintenance
    Directorate in the fabrication, manufacture, and overhaul processes is primarily
    stored in the SSC/WSSC. Storage areas in the SSC/WSSC include courtesy
    storage, floating spares, “awaiting parts,” and bench stock.

    AFMC Instruction 21-130 establishes policies and procedures for depot-level
    maintenance materiel control, support, and management of assets within the
    maintenance divisions at the Air Logistics Centers. The instruction states that
    courtesy storage is a temporary holding area, provided as a courtesy for
    maintenance-owned materiel. It is not to be used as a collection and holding area
    for materiel that maintenance cannot use in a timely manner. As a minimum, an
    inventory of all courtesy storage locations shall take place every 6 months to
    identify items that have not been consumed within the previous 6-month time
    period. If during the 6-month review materiel is found with no consumption
    history in the last 6 months, and there is no known immediate requirement, it
    should be turned in to supply whether or not credit can be obtained.
    Floating Stocks and Spares. Floating stocks are items authorized for retention
    to support maintenance production by acting as replacement components for end
    items whose subassemblies have repair times that exceed the repair time of the
    end item. Floating spares are items authorized for retention in support of
    automatic test equipment. According to Air Force guidance, an annual inventory
    of floating stock and spares will be conducted by the SSC. The location and use
    of the assets must be accounted for and tracked on a floating stock and spares
    detail in the D035K system. The Air Force guidance also states an inventory is
    necessary to ensure the authorization form, AFMC Form 100, “Floating Stock and
    Spares Requirement and Justification,” reflects the minimum quantity of floating
    stock assets needed to maintain end item production schedules. AFMC Form 100
    is the authorization form for maintaining floating stocks and spares. The use of
    floating stocks and spares will be kept to a minimum. In the annual review of
    floating stocks, AFMC Form 100 is to be annotated to indicate whether
    requirements for each item inventoried have changed. AFMC Form 100s
    requiring change will be forwarded to the floating stock and spares monitor for
    processing.


                                         5
    Bench Stocks. Bench stocks are a group of standard items used repetitively in
    predictable time frames and are located in or close to the work area. Bench stocks
    are consumed in the maintenance process, but cannot be identified to a specific
    product. Bench stocks include consumable items such as bolts, nuts, screws,
    solder, tape, and wire. Bench stock authorizations are to be reviewed quarterly by
    SSC/WSSC personnel for accuracy. Excess bench stock will be turned in for
    disposition.


Audit Universe and Sample Selection
    We used D035K data as of May 6, 2002, to identify an audit universe of
    36,304 records for the 6 WR-ALC maintenance divisions. The audit universe was
    valued at $93.1 million. We used a stratified random sample to select 424 records
    at those 6 WR-ALC maintenance divisions. Table 1 shows the number of records
    in the sample by maintenance division.



                                Table 1. Number of Records

                   Maintenance
                    Division                                         Sample
                   Aircrafts*                                           98
                   Avionics                                            101
                   TI                                                  225

                     Total                                             424

           *The Aircrafts Division sample includes 36 C-5 records, 7 C-130 records, 23 C-141
            records, 19 F-15 records, 9 “other” records, and 4 “census” records that were
            intentionally selected (see Appendix A for details).



    We compared the on-hand balances shown on the D035K inventory records with
    the results of our physical count of materiel in the maintenance divisions.


Inventory Records
    WR-ALC did not effectively manage or control materiel stored in local
    maintenance shops. Maintenance inventory records, when matched to a physical
    count, had a projected count error rate of 22.4 percent. The error rate
    overstatements are valued at an estimated $6.6 million and error rate
    understatements are valued at an estimated $4 million. Also, floating spares
    inventory records, when matched to a physical count, had an actual count error



                                            6
rate of 25.7 percent. That error rate resulted in overstatements valued at about
$5.3 million and understatements valued at about $1.2 million.5

Maintenance Inventory Records. WR-ALC maintained inaccurate inventory
records for materiel in D035K. Maintenance inventory records had error counts
of on-hand quantities when compared to a physical count of materiel stored in the
six maintenance divisions. We performed a physical count of selected materiel
stored in the six maintenance divisions. From our sample, we projected at the
90 percent confidence level that 8,138 (22.4 percent) of the 36,304 records had
count errors differing from the physical counts. The lower and upper limits of our
estimate is 6,492 (17.9 percent) and 9,784 (27 percent). The projected count
errors involve overstatements valued at an estimated $6.6 million and errors
understatements are valued at an estimated $4 million.

        Location of Materiel. Location of materiel was not always shown on the
D035K inventory records and, at times, was not always valid. The location of
materiel was not shown for 2,357 of the 36,304 records listed in the D035K (see
the tables in Appendix A, for a summary of records with no location by division).
Further, we could not find all the materiel for a physical count because the
location was imprecise. For example, “DOOR-4” and “AWP169UPSTAIR1”
were used as identifiers for where materiel was located. Because those materiel
locations could not be found, we were not able to validate the on-hand quantity of
materiel shown as being stored there.

Floating Spares Inventory Records. On April 1, 2002, the floating spares
inventory record showed that 2,150 lines of materiel, valued at about $61 million,
were stored as floating spares. Those items were located in the Floating Spares
Room of the Avionics Division. We judgmentally selected 1,181 lines of
materiel, valued at about $20.2 million, for our physical inventory. We compared
the on-hand balance shown on the floating spares inventory records with our
physical count of items. The inventory records had count errors in 303
(25.7 percent) of the 1,181 lines of materiel. The 303 actual count errors
consisted of 268 overstatements, valued at about $5.3 million, and 35
understatements, valued at about $1.2 million.

        AFMC Form 100. The Avionics Division did not review AFMC
Form 100s to determine whether requirements were validated to ensure that the
minimum number of floating spares were on-hand. We obtained the AFMC
Form 100 for 908 of the 1,181 floating spares we inventoried. The forms showed
that the shops did not validate requirements as required. There were no
indications that any of the forms were validated on an annual basis. The AFMC
Form 100s showed original dates as far back as 1985. The floating spares
monitor indicated that for FY 2002, no AFMC Form 100s had been received from
the shops to change floating spares authorization levels.




5
    A judgmental sample was used to select floating spares inventory for review. The results
    presented are limited to the sample reviewed and cannot be generalized to the universe.



                                              7
Storage of Maintenance Materiel
    Materiel stored in maintenance storerooms and on shop floors exceeded
    requirements. The materiel was valued at about $14.1 million.6 The excess
    materiel was located throughout the Aircrafts, Avionics, and TI Divisions.

    Courtesy Storage. Materiel stored in the courtesy storage areas of the Aircrafts
    and TI Divisions exceeded requirements. The courtesy storage inventory listing
    showed that 8,590 lines of materiel, valued at about $12.7 million, were on-hand
    as of June 2002. Of the 8,590 lines of materiel on-hand, about 2,025, valued at
    about $3.6 million, had consumption in the last 6 months. The remaining
    6,565 lines of materiel, valued at about $9.1 million, had not had any
    consumption within the previous 6 months. Further, 4,059 of the 6,565 lines of
    materiel, valued at about $6.1 million, had not had any consumption for more
    than 12 months. Also, WR-ALC had not identified any future requirements for
    the lines of materiel with no consumption beyond 6 months and, therefore, should
    identify whether future requirements do exist. Table 2 shows total lines of
    materiel stored in courtesy storage and the demand for those lines.


                            Table 2. Materiel Stored in Courtesy Storage
                  $14,000,000
                  $12,000,000
                  $10,000,000
                   $8,000,000
          Value




                   $6,000,000
                   $4,000,000
                   $2,000,000
                           $-
                                    8,590             2,025              6,565            4,059

                                T otal Materiel   Materiel with     Materiel with no Materiel with no
                                                  activity in the    activity in the  activity in the
                                                  last 6 months      last 6 months   last 12 months

                                                  Number of Lines of Materiel



    Storage Warehouse and Shop Floors. Excess materiel was stored in a storage
    warehouse and on the shop floors of the Avionics Division. We judgmentally
    selected 213 items for review and found each to be excess. Unit prices were
    available for only 102 of the items, which were valued at about $1.4 million.



    6
        A judgmental sample was used to select materiel stored in maintenance storerooms and on shop
        floors for review. The results presented are limited to the sample reviewed and cannot be
        generalized to the universe.



                                                       8
    WR-ALC personnel stated that the materiel was to be used in test equipment that
    was stored in a warehouse. However, the test equipment was considered obsolete.
    The materiel supporting the equipment should have been turned in to supply.

    Floating Stock Storage. Excess materiel was stored in the floating stock storage
    area of the Avionics Division. In our review of 1,181 lines of floating stock
    materiel, 48 had on-hand balances that exceeded the authorized quantity. The
    48 lines of materiel had a value of about $1.6 million. Further, 79 unserviceable
    reparable items, valued at about $2.0 million,7 were stored in the floating stock
    storage area. Those items were excess and should have been turned in.
    Additionally, 60 of those 79 items were shown on the property books as
    serviceable. Tags on the materiel showed last inspection on some of the items as
    far back as 1995. Maintenance shops are responsible for ensuring that
    unserviceable reparables are turned in to supply.

    Bench Stock. WR-ALC had bench stock on-hand that was excess. The bench
    stock held was no longer needed, exceeded authorized quantities, and had dates of
    last activity greater than 5 years. The excess bench stock was stored and
    managed by the Low Altitude Navigation and Targeting Infrared for Night shop
    in the Avionics Division. The bench stock inventory listing identified 1,509 lines
    of materiel and included the authorized quantity, item description, and date of last
    activity. Unit prices were not always shown on the listing. Of 1,509 lines of
    materiel reviewed, 1,082 (72 percent) had no dates of activity within the last
    5 years. Further, we judgmentally selected 50 lines of materiel for a physical
    inventory. Inventory for the 50 lines was valued at $99,741. Of the 50 lines of
    materiel, 34 had on-hand balances that exceeded the authorized quantity and
    48 had no dates of activity within the last 90 days. For example, National Stock
    Number 5962-10-350-4140SX (Chip) had a unit price of $311.73 and had an
    authorized quantity of one. Our physical count showed that a quantity of 55 for
    that item was on-hand. Also, the date of last activity for the item was August 14,
    1999.


Accountable Records
    Materiel found on the shop floor and in the floating spares storage area of the
    Avionics Division was not recorded on accountable records. The materiel was
    valued at about $16.1 million.8

    Shop Floor. We judgmentally selected for physical inventory 340 items found on
    maintenance shop floors in the Avionics Division. The materiel counted was
    labeled as “Mockup” and was considered to be floating stock. The materiel was

    7
        Value is based either on the D035K and D043A databases or Federal Logistics Information
        Record listings; actual value cannot be determined until WR-ALC considers repair costs or turn
        in for credit.
    8
        A judgmental sample was used to select materiel located on the floor of maintenance shops and
        in storage areas for review. The results presented are limited to the sample reviewed and cannot
        be generalized to the universe.



                                                  9
     not identified on any accountable records and was not needed to satisfy any
     ongoing requirements. Shop personnel stated they maintained the mockup
     materiel in the maintenance areas for possible future use. The value of the
     materiel identified as mockup and not on accountable records totaled about
     $14.5 million. Examples of unrecorded materiel are shown in Table 3.



                 Table 3. Unrecorded Materiel in the Avionics Division
                                 (as of August 2002)

      National Stock Number     Description                  Quantity      Unit Price

      5841-01-158-2818FX      Radar Processor            1          $900,416
      1280-01-159-6188        Scanner Assembly           1          $880,348
      5841-01-346-7942FX      Radar Set Subassembly      2          $583,008




     Floating Spares. We judgmentally selected for physical inventory 1,181 lines of
     materiel stored in the floating spares storage area of the Avionics Division. We
     compared our physical count with the lines of materiel shown on the floating
     spares inventory records. The inventory records did not include 231 of the
     1,181 lines of materiel. Further, we were able to identify unit prices for only
     151 of the lines. Inventory for those 151 lines of materiel was valued at about
     $1.6 million.


Physical Inventories
     Count errors occurred, materiel went unrecorded, and excess materiel
     accumulated because personnel in the Avionics and TI Divisions did not perform
     complete annual physical inventories as required. The Aircrafts Division did
     complete an annual physical inventory as required. In the Avionics Division,
     personnel responsible for physical inventories performed a physical inventory of
     the items shown on the D035K listing. However, materiel such as the mockups
     was not included in the physical count. Personnel in the TI Division stated they
     perform a physical inventory weekly. However, the inventory official did not
     retain any documents to support that statement. The inventory official did
     provide results of a physical inventory performed over a 1-week period ending
     August 24, 2002. Those results showed an error count rate of about 37 percent.
     A WR-ALC official attributed various reorganizations within the Maintenance
     Directorate as reasons why physical inventories were not performed. During our
     visit, shop personnel in the Avionics Division began conducting a physical
     inventory, identifying and accounting for all materiel.




                                         10
Periodic Reviews
     Periodic reviews of materiel on-hand were not always performed. Personnel
     responsible for semi-annual reviews of courtesy storage did not perform the
     reviews as required and quarterly reviews of bench stock had not occurred.

     Semi-Annual Reviews. WR-ALC personnel did not perform semi-annual
     reviews of courtesy storage materiel as AFMC Instruction 21-130 requires. The
     instruction requires semi-annual review of materiel in courtesy storage. The
     review includes consumption history and determining whether a known
     immediate requirement exists. Planners in the Aircrafts (two of the four planners)
     and TI Divisions did not always complete semi-annual reviews of courtesy
     storage inventories to validate whether materiel had consumption history in the
     last 6 months or whether the materiel had immediate requirements. WR-ALC
     personnel, including the planners, were aware of the requirement to perform the
     semi-annual reviews and provided detailed listings to planners for completion.
     However, the planners did not complete the assessments.

     Quarterly Reviews. Quarterly reviews were not performed to identify idle or
     unused bench stock in the Low Altitude Navigation and Targeting Infrared for
     Night shop of the Avionics Division because SSC/WSSC personnel had not
     initiated the requirement to perform the reviews. According to shop personnel,
     the bench stock was excess and attributed the excess to consolidation of bench
     stocks from other shops and no recent activity of the bench stock inventory.


WR-ALC Turn-In of Materiel
     In June 2001, the Avionics Division began the process of turning in excess
     materiel to the SSC/WSSC. At the end of July 2002, the Avionics Directorate
     turned in about $53.2 million of materiel. The remaining materiel was being
     reviewed for turn-in.


Potential Monetary Benefits
     The audit identified excess and unrecorded materiel valued at about
     $30.2 million. Therefore, WR-ALC could have about $30.2 million of potential
     monetary benefits. The exact amount cannot be determined until WR-ALC
     identifies inventory excess to prevailing requirements and determines whether the
     excess materiel can be used to satisfy other known requirements.


Conclusion
     WR-ALC did not comply with DoD and AFMC guidance for managing materiel
     stored in the maintenance divisions and AFMC did not require WR-ALC to


                                         11
    submit reports on inventories of maintenance materiel for management review.
    As a result, WR-ALC had large and inaccurate inventories that were difficult to
    manage and included materiel in excess to known requirements, valued at about
    $14.1 million, and materiel that was unaccounted for, valued at about
    $16.1 million. Further, AFMC did not fully provide oversight of maintenance
    materiel at WR-ALC. The lack of accountability and control of materiel at
    WR-ALC is an ongoing problem. The Inspector General of the Department of the
    Defense reported similar conditions in 1995. This audit revealed that the problem
    continues to exist. We believe effective management of maintenance materiel
    requires, as a minimum, that WR-ALC perform annual physical inventories and
    conduct periodic reviews of courtesy storage and bench stock. Further, we
    believe that AFMC should take an active role in monitoring the management of
    materiel at WR-ALC.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Warner Robins Air Logistics Center
    immediately:

          1. Comply with Air Force guidance regarding the management of
    maintenance materiel stored at the Air Logistics Center.

         2. Issue guidance regarding materiel management reports for
    management review.

    Management Comments. The Air Force concurred with both recommendations,
    stating that the WR-ALC Director of Maintenance issued a policy directive to
    ensure proper supply discipline and use of materiel metrics in monthly materiel
    reviews.

           3. Perform an annual physical inventory of all materiel recorded in
    the D035K Wholesale and Retail and Shipping System that is the
    responsibility of the Maintenance Directorate, reconcile the results, and turn
    in excess materiel to supply.

    Management Comments. The Air Force concurred and stated that it provided
    instructions to the Shop Service Centers and the Weapon System Support Centers
    to ensure consistent completion of all inventories and that all inventories will be
    completed by September 30, 2003.

          4. Perform a physical count of all materiel located on the
    maintenance shop floors and in storerooms, reconcile the physical count to
    the D035K Wholesale and Retail and Shipping System, and turn in excess
    materiel to supply.

    Management Comments. The Air Force concurred and stated that the effort will
    be completed by December 30, 2003.



                                        12
        5. Update or complete Air Force Materiel Command Form 100 for
each line of floating stock and spares inventory. Submit to the floating stock
and spares monitor for processing those forms in which the authorization
level changes.

Management Comments. The Air Force concurred, stating that a complete
inventory is underway to identify excess items. The inventory will include
assessing the AFMC Form 100 for each item on the D035K inventory record.

       6. Perform semi-annual reviews of materiel stored in the courtesy
storage area and turn in excess materiel to supply.

Management Comments. The Air Force concurred and stated that local
procedures have been established to review materiel held every 6 months and that
documentation of the reviews will be retained for a minimum of 1 year.

       7. Perform quarterly reviews of bench stock materiel in the Low
Altitude Navigation and Targeting Infrared for Night shop of the Avionics
Division and turn in excess materiel to supply.

Management Comments. The Air Force concurred, stating that maintenance
personnel are performing quarterly reviews of inactive bench stock and will turn
in excess items.

Audit Response. The Air Force comments were responsive to the intent of the
recommendations. We commend the Air Force for its comprehensive actions and
cooperation to improve the accountability and control of materiel at WR-ALC.

Management Comments on the Potential Monetary Benefits. The Air Force
accepted the potential monetary benefit of $30.2 million but noted that the audit
did not make it clear whether we were claiming that the Air Force can recoup that
amount through deferred procurements of items or sale of excess materiel. The
Air Force also stated that funding for Air Force materiel should not be reduced by
that amount unless a clear link can be shown between the erroneous reporting of
assets and opportunities to avoid expenditures.
Audit Response. We identified the $30.2 million in potential monetary benefits
as funds that could be put to better use. The funds could be used more efficiently
by WR-ALC if it implements the recommendations in this report. Visibility of
materiel, not currently on inventory records, and the identification of excess items
results in improved inventory control. Through inventory control, materiel not
needed for current requirements can be identified and made available for
redistribution to meet other known requirements.

Management Comments on the Management Control Program. The Air
Force stated that it needed to review whether the management of maintenance
materiel should be an assessable unit under the management control program.
The Air Force stated it will advise the Office of the Inspector General of the
Department of Defense of its determination by March 21, 2003.




                                     13
Appendix A. Scope and Methodology
   We performed this audit at the WR-ALC at Robins Air Force Base, located in
   Warner Robins, Georgia. We contacted personnel at WR-ALC. We concentrated
   on accountability and control of materiel. D035K inventory records as of May 6,
   2002, showed that materiel valued at $93.1 million was stored at WR-ALC. We
   reviewed DoD and Air Force regulations regarding policies, responsibilities, and
   procedures for accounting for and controlling materiel at Air Force Air Logistics
   Centers. To determine whether materiel was accurately accounted for and
   controlled on inventory records, we physically inventoried materiel stored in the
   Aircrafts, Avionics, and TI Divisions. We also determined whether annual
   inventories were performed and whether management reports were prepared. We
   statistically selected for review 424 records (98 records in various aircraft
   divisions, 101 records in the Avionics Division, and 225 records in the TI
   Division) from a universe of 36,304 records for review. We used judgmental
   samples to select for review lines of materiel in floating spares inventory, materiel
   stored in maintenance storerooms, and materiel on shop floors. We determined
   unit prices by using WR-ALC inventory records (D035K), the Air Force Master
   Item Identification Database (D043A), and the Federal Logistics Information
   Record.

   We performed this audit from March through November 2002 in accordance with
   generally accepted government audit standards.

   Sample Design. We used a stratified random sample design and in each stratum
   selected simple random samples of records reported as of May 2002 for Aircrafts,
   Avionics, and TI Divisions. Table A-1 shows the number of records for each
   stratum.




                                        14
                         Table A-1. Population and Sampling

                                                            Number of Records

                   Inventory                               Universe          Sample
        Regular1
          Aircrafts Division (Stratum 1)                      7,187             60
          Avionics Division (Stratum 2)                       5,456             60
          TI Division (Stratum3)                             11,617            120

        Courtesy Storage
          Aircrafts Division (Stratum 4)                      7,946             30
          Avionics Division (Stratum 4)                          0               0
          TI Division (Stratum 5)                               573             30

        Awaiting Parts
         Aircrafts Division (Stratum 6)                          0               0
         Avionics Division (Stratum 6)                        1,032             30
         TI Division (Stratum 7)                                132             30

        Records with No Location2 (Stratum 8 and 9)           2,357             60

        Census3 (Stratum 10)                                        4             4

          Total                                              36,304            424
1
 During the initial preparation to identify the audit universe, WR-ALC indicated that nine
other items were not stored in the regular inventory of the Avionics or TI Divisions, so
we included them in the Aircrafts Division. As a result, those items became part of our
random sample for the Aircrafts Division. Upon validating our statistical sample, it was
found that those items were stored in the TI Division. The items were retained in the
appropriate Aircrafts Division stratum.
2
These are records where the warehouse location field in the D035K was empty.
3
 The Census stratum comprises four records that were intentionally selected for review
but were not included when projecting our results.




                                           15
Tables A-2 and A-3 show the sample breakdown of the 2,357 records listed in
D035K as not having a location.




                   Table A-2. Sample Breakdown of Records
                         With No Location, by Division

                                                    Number of Records

                 Division                           Universe       Sample

           Aircrafts Division                          92               4
           Avionics Division                          172              11
           TI Division                              2,093              45

           Total                                    2,357              60




                   Table A-3. Sample Breakdown of Records
                      With No Location, by Storage Area


                                                    Number of Records

         Storage Area                                       Universe        Sample

       Regular Storage (Stratum 8)                  2,162              30
       Other (Courtesy and Awaiting Parts)            195              30
            (Stratum 9)
        Total                                       2,357              60


Sample Results. Using the stratified sample design, we calculated statistical
projections of the count errors of materiel in storage locations and the projected
values of the overstated and understated inventories. Based on the sample results,
using a 90 percent confidence level, we projected that between 6,492 and 9,784 of
the 36,304 records had materiel count errors at WR-ALC. The point estimate
8,138 was the mid point of the range of the values. We further projected that the
overstated value of the materiel in error was between $3.72 million and
$9.57 million. The point estimate $6.64 million was the mid point of the range of
values. Also, the understated value of the materiel in error was between
$2.31 million and $5.62 million. The point estimate of $3.97 million was the mid
point of the range of values.



                                    16
  Use of Computer-Processed Data. We relied on computer-processed data from
  D035K for determining the accuracy of inventory records. Our review of system
  controls and the results of data tests showed an error rate that cast doubt on the
  data’s validity. However, we reviewed the data in context with other available
  evidence and concluded that the opinion, conclusions, and recommendations in
  this report are valid.

  Use of Technical Assistance. Statisticians from the Quantitative Methods
  Division, Office of the Inspector General of the Department of Defense provided
  assistance in designing a random statistical sampling plan for performing physical
  inventories and in evaluating the results of the samples.

  High-Risk Area. The General Accounting Office has identified several high-risk
  areas in DoD. This report provides coverage of the Defense Inventory
  Management high-risk area.


Management Control Program Review
  DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
  and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
  August 28, 1996, require DoD organizations to implement a comprehensive
  system of management controls that provides reasonable assurance that programs
  are operating as intended and to evaluate the adequacy of the controls.

  Scope of the Review of the Management Control Program. We reviewed the
  adequacy of management controls at WR-ALC regarding accountability and
  excess materiel. We also reviewed the results of management’s self-evaluation of
  those controls.

  Adequacy of Management Controls. We identified material management
  control weaknesses for WR-ALC as defined by DoD Instruction 5010.40.
  WR-ALC management controls for managing depot maintenance materiel were
  not adequate to ensure that materiel was accounted for and did not exceed
  requirements. Further, annual physical inventories were not performed as
  required and reviews to determine whether materiel was needed were not
  performed, especially for materiel in regular inventories, courtesy storage,
  floating stock and spares, “awaiting parts” inventory, and bench stock. All
  recommendations, if implemented, will improve management of materiel. A copy
  of the report will be provided to the senior official responsible for management
  controls in the Air Force.

  Adequacy of Management’s Self-Evaluation. WR-ALC officials did not
  identify management of maintenance materiel as an assessable unit and, therefore,
  did not identify or report the material management control weaknesses identified
  by the audit.




                                      17
Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued five reports that discuss management of repair parts for
    maintenance. The Air Force Audit Agency has also issued 3 reports that discuss
    accountability and control of materiel. Final, unrestricted IG DoD reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2003-0057, “Accountability and Control of Materiel at the
    Naval Air Deport, Jacksonville, March 5, 2003

    IG DoD Report No. D-2003-033, “Accountability and Control of Materiel at the
    Naval Air Depot, North Island,” December 6, 2002

    IG DoD Report No. D-2002-091, “Accountability and Control of Materiel at the
    Corpus Christi Army Depot,” May 21, 2002

    IG DoD Report No. D-2002-003, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot,” October 4, 2001

    IG DoD Report No. D-2001-186, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot – Stockage of Communications-Electronics Materiel,”
    September 21, 2001


Air Force
    Air Force Audit Agency, Audit Report No. F2003-0007-FCR000, “F-15
    Programmed Depot Maintenance Materiel Support,” December 19, 2002
    Air Force Audit Agency, Audit Report No. DR001034. “FX 2065 Special
    Inventory Account, Defense Logistics Agency, Robins Air Force Base, Georgia,”
    August 21, 2001

    Air Force Audit Agency, Audit Report No. DR001033, “Aircraft Materiel
    Management, C-5 Production Area,” Warner Robins Air Logistics Center,
    August 17, 2001




                                        18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
       Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Warner Robins Air Logistics Center

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          20
Department of the Air Force Comments




                     21
22
23
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Keith A. Yancey
Elizabeth A. Denny
Beverly L. Cornish
Scott S. Cygan
Charlisa Trahan
Brantley Thomas
Shanika S. Knight
Henry D. Barton
Dharam V. Jain
Elizabeth L.N. Shifflett
